                                              UNITED STATES OF AMERICA
                                       FEDERAL TRADE COMMISSION
                                                WASHINGTON, D.C. 20580




                                                                                March 27, 2013


Mr. Roy A. Lavik
Inspector General
U.S. Commodity Futures Trading Commission
Three Lafayette Centre
1155 21 51 Street, NW
Washington, DC 20581

Subject: Report on the Quality Assessment Review of the Investigative Operations of the Office of
Inspector General for the Commodity Futures Trading Commission

Dear Mr. Lavik:

We have reviewed the system of internal safeguards and management procedures for the investigative
function of the Office of Inspector General for the Commodity Futures Trading Commission (CFTC) in
effect for the period ending January 31, 2013. Our review was conducted in conformity with the Quality
Standards for Investigations and the Quality Assessment Review Guidelines adopted by the Council of
the Inspectors General on Integrity and Efficiency (CIGIE).

We reviewed compliance with the CFTC OIG 's system of internal policies and procedures to the extent
we considered appropriate. The review was conducted at the headquarters office in Washington, DC.
Additionally, we reviewed the case file for the one investigation conducted by the CFTC OIG during the
previous 12-month period.

In our opinion, the system of internal safeguards and management procedures for the investigative
function ofthe CFTC OIG in effect for the year ended January 31, 2013, is compliant with the quality
standards adopted by CIGIE. These safeguards and procedures provide reasonable assurance of
conforming with professional standards in the conduct of its investigations.

We have attached your comments based on our draft report.




#JJ~
Scott Wilson
Inspector General
Federal Trade Commission
                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                             Three Lafayette Centre
                                  1155 21st Street, NW, Washington, DC 20581
                                          Telephone: (202) 418-511 0
                                           Facsimile: (202) 418-5522



   Office of the
Inspector General




                                        March 26, 2013

Scott Wilson, Inspector General
Federal Trade Commission
600 Pennsylvania Ave., N.W.
Washington, DC 20580


       Subject:      Draft Report on the Quality Assessment Review of the Investigative
                     Operations of the OHice oflnspector General for the Commodi ty Futures
                     Trading Commission

     2~-:xr--
Dear Mr.Witsorr.

        Thank you for reviewing the system of internal safeguards and management procedures
for the investigative function of my Office. We are pleased with the report, which concluded
that the safeguards and procedures employed by my Office "provide reasonable assurance of
conforming with professional standards in the conduct" of our investigations.

       If you have any questions, please contact me at (202) 418-5110.




                                           A. Roy Lavik
                                           Inspector General
